IN THE
SUPREME COURT OF THE UNITED STATES

No. __________

MONSTER ENERGY COMPANY, F/K/A HANSEN BEVERAGE COMPANY,
V.

CITY BEVERAGES, LLC, D/B/A OLYMPIC EAGLE DISTRIBUTING
APPLICATION FOR AN EXTENSION OF TIME WITHIN WHICH
TO FILE A PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

NORMAN L. SMITH
TANYA M. SCHIERLING
DANIEL E. GARDENSWARTZ
SOLOMON WARD SEIDENWURM &
SMITH LLP
401 B Street, Suite 1200
San Diego, CA 92101
Tel.: (619) 231-0303

JOSEPH R. PALMORE
Counsel of Record
SAMUEL B. GOLDSTEIN
MORRISON & FOERSTER LLP
2000 Pennsylvania Avenue NW
Washington, DC 20006
JPalmore@mofo.com
Tel.: (202) 887-6940
DAN MARMALEFSKY
MORRISON & FOERSTER LLP
707 Wilshire Boulevard
Los Angeles, CA 90017
Tel.: (213) 892-5200

Counsel for Monster Energy Company
March 13, 2020

IN THE
SUPREME COURT OF THE UNITED STATES

No. __________

MONSTER ENERGY COMPANY, F/K/A HANSEN BEVERAGE COMPANY,
V.

CITY BEVERAGES, LLC, D/B/A OLYMPIC EAGLE DISTRIBUTING

APPLICATION FOR AN EXTENSION OF TIME WITHIN WHICH
TO FILE A PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

To the Honorable Elena Kagan, Associate Justice of the Supreme Court of the
United States:
Applicant Monster Energy Company (“Monster”) requests a 60-day extension
from March 30, 2020, to and including May 29, 2020, within which to file a petition
for a writ of certiorari to review the judgment of the United States Court of Appeals
for the Ninth Circuit in this case.1
The Ninth Circuit entered judgment on October 22, 2019. App., infra, 1a26a. The Ninth Circuit extended the time within which to file a petition for panel

1

To comply with S. Ct. R. 29.6, Monster states that Monster Energy
Company, f/k/a Hansen Beverage Company, is a wholly owned subsidiary of
Monster Beverage Corporation. The only publicly held corporation or other publicly
held entity that owns 10% or more of Monster Beverage Corporation is The CocaCola Company.

rehearing and rehearing en banc to December 5, 2019.

On that date, Monster

timely filed a petition for rehearing and rehearing en banc, which the Ninth Circuit
denied on December 30, 2019, App., infra, 27a. A petition for a writ of certiorari is
currently due on March 30, 2020. This application is being filed more than ten days
before that date. See S. Ct. R. 13.5.
The jurisdiction of this Court would be invoked under 28 U.S.C. § 1254(1).
Copies of the opinion of the court of appeals, the order denying rehearing and
rehearing en banc, and the district court opinion are attached to this application.
App., infra, 1a-35a.
1.

This case involves the Federal Arbitration Act (“FAA”) provision

authorizing district courts to vacate an arbitration award “where there was evident
partiality” in the arbitrator. 9 U.S.C. § 10(a)(2). In Commonwealth Coatings Corp.
v. Continental Casualty Co., the Court held that this provision mandates vacatur for
evident partiality where the arbitrator “might reasonably be thought biased against
one litigant and favorable to another.” 393 U.S. 145, 150 (1968) (plurality opinion).
Thus, the Court required that “arbitrators disclose to the parties any dealings that
might create an impression of possible bias.” Id. at 149. But the FAA does not
require vacatur for evident partiality where any undisclosed facts are “trivial.” Id.
at 150 (White, J., concurring).
2.

In 2006, Monster and Olympic Eagle Distributing (“Olympic”) agreed

to make Olympic the exclusive distributor of Monster-branded beverages in part of
Washington. App., infra, 28a. The agreement had a 20-year term but permitted

2

Monster to terminate earlier without cause upon payment of an agreed severance.
App., infra, 29a. It also required that any dispute relating to the agreement be
settled by binding arbitration conducted by JAMS. App., infra, 29a.
In 2015, Monster exercised its termination rights and sent Olympic the
contractual severance.

App., infra, 29a.

Olympic objected, contending that,

notwithstanding the agreement, Washington’s franchise law prohibited termination
without cause.

App., infra, 29a.

Monster demanded arbitration and moved in

district court to compel arbitration.

App., infra, 29a.

Olympic opposed on the

ground that the arbitration provision was unconscionable because of the parties’
supposedly unequal bargaining power. App., infra, 20a, 29a. Noting Olympic’s
“obvious sophistication,” the district court rejected Olympic’s challenge and
compelled arbitration before JAMS. App., infra, 20a, 29a; CA9 SER839.
Pursuant to JAMS’s standard rules and procedures, JAMS appointed the
Honorable John W. Kennedy, Jr. (Ret.) as the arbitrator. App., infra, 4a. Judge
Kennedy provided disclosures using JAMS’s standard form, which included the
statement that “[e]ach JAMS neutral, including me, has an economic interest in the
overall financial success of JAMS.” App., infra, 5a. He also disclosed a previous
arbitration with Monster—where he ruled against Monster—and another pending
distributor-termination arbitration involving Monster, with the same counsel
representing Monster in all these proceedings. App., infra, 19a. He further advised
that “the parties should assume” JAMS had conducted other arbitrations with the
parties or their counsel and may do so in the future. App., infra, 5a-6a. Indeed,

3

JAMS’s website disclosed over 80 previous arbitrations involving Monster. App.,
infra, 20a & n.3.

Olympic did not inquire further or move to disqualify the

arbitrator. App., infra, 31a.
After hard-fought litigation culminating in a two-week hearing, the
arbitrator ruled for Monster. App., infra, 29a. He found that Olympic did not
qualify for protection under Washington’s franchise law and that Monster thus
properly terminated the agreement. App., infra, 29a. He awarded Monster its costs
and attorney’s fees. App., infra, 29a.
3.

Monster petitioned to confirm the arbitration award. App., infra, 30a.

Olympic cross-petitioned to vacate, alleging “evident partiality” in the arbitrator
under the FAA. App., infra, 30a. Olympic asserted that, after the arbitration, it
learned that Judge Kennedy was a part owner of JAMS. App., infra, 30a. It argued
that the arbitrator’s failure to disclose this “ownership interest,” given Monster’s
status as a “repeat player” in JAMS arbitrations, established evident partiality.
App., infra, 30a-31a.
The district court confirmed the award. App., infra, 28a-35a. It rejected
Olympic’s evident-partiality challenge, observing that “[a]n ownership interest in
JAMS is merely a type of economic interest,” and finding “no reason to require that
the Arbitrator have disclosed his particular economic interest at a granular level
unless the parties inquired further after he made his initial economic interest
disclosure.” App., infra, 31a.

4

4.

In a split decision, the court of appeals reversed and vacated the

arbitration award.

App., infra, 1a-26a.

The majority concluded that “the

Arbitrator’s failure to disclose his ownership interest in JAMS—given its nontrivial
business relations with Monster—creates a reasonable impression of bias.” App.,
infra, 17a. It assumed—without citation or support—that “as a co-owner of JAMS,
the Arbitrator has a right to a portion of profits from all of its arbitrations, not just
those that he personally conducts.” App., infra, 12a. It further presumed—again
without citation or support—that “[t]his ownership interest * * * greatly exceeds the
general economic interest that all JAMS neutrals naturally have in the
organization” and “is therefore substantial.”

App., infra, 12a.

It determined

JAMS’s 97 Monster arbitrations over five years were “hardly trivial,” while
acknowledging it had no information about “the Arbitrator’s specific monetary
interest in Monster-related arbitrations” or any other “empirical evidence.” App.,
infra, 12a & n.3.
Based on this series of assumptions, the majority announced a new rule:
even where arbitrators disclose that they have an economic interest in their
arbitration firm and that their firm does business with the parties and their
counsel, arbitration awards must be vacated for evident partiality if arbitrators do
not disclose (1) “their ownership interests, if any, in the arbitration organizations
with whom they are affiliated in connection with the proposed arbitration,” and
(2) “those organizations’ nontrivial business dealings with the parties to the
arbitration.” App., infra, 17a.

5

Judge Friedland dissented. She concluded that the additional disclosure of
the arbitrator’s ownership interest in JAMS would not “have made any material
difference.” App., infra, 18a. An arbitrator’s “ownership interest in the arbitration
firm,” beyond “a financial interest in that firm more generally, is hardly the sort of
‘real’ and ‘not trivial’ undisclosed conflict” requiring vacatur.

App., infra, 22a

(citation omitted). Judge Friedland also recognized the new rule’s disruptive impact
now and in the future.

In the short run, it “will require vacating awards in

numerous cases decided by JAMS owners (who make up about a third of JAMS
arbitrators)”—and owners of other arbitration firms—“who did not disclose their
ownership interests.” App., infra, 24a. In the long run, the “uncertainty created by
the majority’s opinion” about “the extent of disclosures required by arbitrators” will
“generate endless litigation over arbitrations that were intended to finally resolve
disputes outside the court system.” App., infra, 23a-25a.
5.

Monster filed a petition for panel rehearing and rehearing en banc.

JAMS filed a brief as amicus curiae supporting Monster’s rehearing petition. That
brief was “the first amicus brief JAMS has ever submitted in any case.” JAMS
Amicus Br. 1. JAMS explained that “there is simply no factual or record basis to
assume that any ownership interest in an arbitration provider creates any potential
bias in favor of any party or lawyer, even a ‘repeat player.’” Id. at 13. And it noted
that “[p]arties in pending and final arbitration proceedings have already begun
requesting additional information from JAMS, beyond what is required by the
decision (including personal financial information of the arbitrator), seeking some

6

basis to challenge the arbitrator or the final award.” Id. at 17. The court of appeals
denied rehearing. App., infra, 27a. Monster moved to stay the mandate pending
the filing and disposition of a petition for a writ of certiorari, which the court of
appeals granted. CA9 ECF No. 112.
6.

Monster requests a 60-day extension of time within which to file a

petition for a writ of certiorari seeking review of the Ninth Circuit’s decision.
Monster submits there is good cause for granting the request.
a.

This case presents an important question regarding arbitrators’

disclosure obligations under the FAA. The Ninth Circuit majority announced a rule
that effectively creates a presumption of evident partiality in all private
arbitrations and conflicts with precedent from this Court and other courts of
appeals. As Judge Friedland noted in dissent, neither Commonwealth Coatings nor
any other “reported federal decision” has vacated an award for evident partiality
based on “an undisclosed potential source of bias” allegedly inherent in “the
structure of the private arbitration industry itself.”

App., infra, 23a.

And the

majority’s unsupported and generalized presumption of bias conflicts with the
approaches of other courts of appeals.

For instance, the D.C. Circuit requires

parties challenging awards based on evident partiality to meet a “heavy burden of
proof” by presenting “specific facts” showing that any undisclosed “interest was
more than trivial.” Republic of Argentina v. AWG Grp. Ltd, 894 F.3d 327, 335, 337
(D.C. Cir. 2018). Likewise, under Second Circuit law, the undisclosed facts must be
“strongly suggestive of bias in favor of one of the parties,” and “a showing of evident

7

partiality ‘may not be based simply on speculation.’” Scandinavian Reinsurance Co.
v. Saint Paul Fire & Marine Ins. Co., 668 F.3d 60, 72 (2d Cir. 2012).
The additional time Monster seeks here will allow counsel to investigate
further the manner in which the Ninth Circuit’s ruling conflicts with the decisions
of this Court and other courts.
b.

In addition, counsel for Monster had and have a number of other

obligations during the period for preparation of the petition. Counsel recently filed
a response brief on February 14 in Route1 Inc. v. AirWatch, LLC, No. 20-1031 (Fed.
Cir.); a response brief on February 14 in Ezeokoli v. Uber Technologies, Inc.,
No. A156445 (Cal. App. 1st); an amicus brief in this Court on March 2 in Barr v.
American Association of Political Consultants, No. 19-631; and a response brief on
March 10 in Richardson v. UPS Store, Inc., No. SJC-12769 (Mass. Sup. Jud. Ct.).
Counsel currently have an opening brief due on March 26 in Federal Trade
Commission v. Synovus Bank, No. 20-10191 (11th Cir.); an oral argument on April 9
in Richardson v. UPS Store, Inc., No. SJC-12769 (Mass. Sup. Jud. Ct.); a reply brief
due April 14 in A.C. v. Pacific Fertility Center, No. A158155 (Cal. App. 1st); and an
oral argument on April 16 in In re Pacific Fertility Center Litigation, Nos. 19-15885,
-15886, -15888 (9th Cir.).
CONCLUSION
For these reasons, Monster requests that the Court extend the time within
which to file a petition for a writ of certiorari in this matter to and including May
29, 2020.

8

Dated: March 13, 2020

Respectfully submitted,

NORMAN L. SMITH
TANYA M. SCHIERLING
DANIEL E. GARDENSWARTZ
SOLOMON WARD SEIDENWURM & SMITH

JOSEPH R. PALMORE
Counsel of Record
SAMUEL B. GOLDSTEIN
MORRISON & FOERSTER LLP
2000 Pennsylvania Avenue NW
Washington, DC 20006
JPalmore@mofo.com
Tel.: (202) 887-6940

LLP

401 B Street, Suite 1200
San Diego, CA 92101
Tel.: (619) 231-0303

DAN MARMALEFSKY
MORRISON & FOERSTER LLP
707 Wilshire Boulevard
Los Angeles, CA 90017
Tel.: (213) 892-5200
Counsel for Monster Energy Company

9

No. __________
MONSTER ENERGY COMPANY, F/K/A HANSEN BEVERAGE COMPANY,
V.

CITY BEVERAGES, LLC, D/B/A OLYMPIC EAGLE DISTRIBUTING
CERTIFICATE OF SERVICE

I, Joseph R. Palmore, hereby certify that I am a member of the Bar of this
Court, and that I have this 13th day of March, 2020, caused one copy of the
Application For An Extension of Time Within Which To File A Petition For A Writ
of Certiorari to the United States Court of Appeals for the Ninth Circuit to be
served on the following counsel by third-party carrier and also by electronic mail.

Dated: March 13, 2020

Jonathan Solish
David A. Harford
BRYAN CAVE LEIGHTON PAISNER
3161 Michelson Drive
Suite 1500
Irvine, CA 92612
jonathan.solish@bryancave.com
david.harford@bryancave.com

~~ cJ-l FD

Michael Vaska
Rylan Weythman
Devra R. Cohen
Asti Gallina
FOSTER GARVEY PC
1111 Third Avenue
Suite 3000
Seattle, WA 98101
mike.vaska@foster.com
devra.cohen@foster.com
rylan.weythman@foster.com
asti.gallina@foster.com

Joseph R. Palmore

ny-1876838

Appendix

Table of Contents
Opinion
(Nos. 17-55813, 17-56082, 9th Cir.)

1a-26a

Order Denying Petition for Rehearing
and Rehearing En Banc
(Nos. 17-55813, 17-56082, 9th Cir.)

27a

Order Confirming Arbitration Award
(No. 5:17-cv-00295-RGK-KK, C.D.
California)

28a-35a

1a
FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
MONSTER ENERGY COMPANY, FKA
Hansen Beverage Company,
Petitioner-Appellee,
v.
CITY BEVERAGES, LLC, DBA
Olympic Eagle Distributing,
Respondent-Appellant.

Nos. 17-55813
17-56082
D.C. No.
5:17-cv-00295RGK-KK
OPINION

Appeal from the United States District Court
for the Central District of California
R. Gary Klausner, District Judge, Presiding
Argued and Submitted July 12, 2019
Pasadena, California
Filed October 22, 2019
Before: MILAN D. SMITH, JR. and MICHELLE T.
FRIEDLAND, Circuit Judges, and MICHAEL H. SIMON, *
District Judge.
Opinion by Judge Milan D. Smith, Jr.;
Dissent by Judge Friedland
The Honorable Michael H. Simon, United States District Judge for
the District of Oregon, sitting by designation.
*

2a
2

MONSTER ENERGY V. CITY BEVERAGES
SUMMARY **
Arbitration

The panel reversed the district court, vacated a final
arbitration award between Monster Energy Co. and City
Beverages, LLC, doing business as Olympic Eagle
Distributing, and vacated the district court’s award of postarbitration fees to Monster Energy Co. for its petition to
confirm the award.
After Monster terminated its distribution agreement with
Olympic Eagle, the parties proceeded to arbitration. The
parties chose an arbitrator from a list of several neutrals
provided by JAMS, the arbitration organization specified in
the agreement. The arbitrator ruled in favor of Monster, and
Monster asked the district court to confirm its award.
Olympic Eagle sought to vacate the award based on laterdiscovered information that the arbitrator was a co-owner of
JAMS—a fact that he did not disclose prior to arbitration.
The panel first held that Olympic Eagle had not waived
its evident partiality claim because it did not have
constructive notice of the arbitrator’s potential nonneutrality.
The panel then held that before an arbitrator is officially
engaged to perform an arbitration, to ensure that the parties’
acceptance of the arbitrator is informed, arbitrators must
disclose their ownership interests, if any, in the arbitration
**
This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

3a
MONSTER ENERGY V. CITY BEVERAGES

3

organizations with whom they are affiliated in connection
with the proposed arbitration, and those organizations’
nontrivial business dealings with the parties to the
arbitration. In this case, the arbitrator’s failure to disclose
his ownership interest in JAMS, coupled with the fact that
JAMS has administered 97 arbitrations for Monster over the
past five years, created a reasonable impression of bias and
supported vacatur of the arbitration award. Because the
panel vacated the arbitration award, the panel also vacated
the district court’s award of post-arbitration fees to Monster.
Dissenting, Judge Friedland disagreed that, in an
evaluation of whether the arbitrator might favor Monster, the
additional information the majority believed should have
been disclosed would have made any material difference.
She would therefore reject Olympic Eagle’s effort to vacate
the arbitration award in Monster’s favor.
COUNSEL
Michael K. Vaska (argued), Rylan L.S. Weythman, and
Devra R. Cohen, Foster Pepper PLLC, Seattle, Washington;
Jonathan Solish and David A. Harford, Bryan Cave LLP,
Irvine, California; for Respondent-Appellant.
Tanya M. Schierling (argued), Norman L. Smith, and Daniel
E. Gardenswartz, Solomon Ward Seidenwurm & Smith
LLP, San Diego, California, for Petitioner-Appellee.
Michael D. Madigan and Brandt F. Erwin, Madigan Dahl &
Harlan P.A., Minneapolis, Minnesota, for Amicus Curiae
National Beer Wholesalers Association.

4a
4

MONSTER ENERGY V. CITY BEVERAGES
OPINION

M. SMITH, Circuit Judge:
City Beverages, LLC, doing business as Olympic Eagle
Distributing (Olympic Eagle), and Monster Energy Co.
(Monster) signed an agreement providing exclusive
distribution rights for Monster’s products to Olympic Eagle
for a fixed term in a specified territory. After Monster
exercised its contractual right to terminate the agreement, the
parties proceeded to arbitration to determine whether
Olympic Eagle was entitled to protection under Washington
law, and thus whether Monster had improperly terminated
the agreement without good cause. From a list of several
neutrals provided by JAMS, the arbitration organization
specified in the agreement, the parties chose the Honorable
John W. Kennedy, Jr. (Ret.) (the Arbitrator). At the outset
of arbitration, the Arbitrator provided a series of disclosure
statements. In the final arbitration award (the Award), the
Arbitrator determined that Olympic Eagle did not qualify for
protection under Washington law.
The parties filed cross-petitions in the district court, with
Monster seeking to confirm the Award and Olympic Eagle
moving to vacate it. The district court ultimately confirmed
the Award.
We conclude, given the Arbitrator’s failure to disclose
his ownership interest in JAMS, coupled with the fact that
JAMS has administered 97 arbitrations for Monster over the
past five years, that vacatur of the Award is necessary on the
ground of evident partiality. We therefore reverse the
district court and vacate the Award. We also vacate the
district court’s award of post-arbitration fees to Monster for
its petition to confirm the Award.

5a
MONSTER ENERGY V. CITY BEVERAGES

5

FACTUAL AND PROCEDURAL BACKGROUND
I. Factual Background
In 2006, Olympic Eagle, an Anheuser-Busch (AB)
distributor, agreed to promote and sell Monster energy
drinks for twenty years in an exclusive territory. The
contract permitted Monster to terminate the agreement
without cause upon payment of a severance fee. Eight years
later, Monster exercised its termination right and offered to
pay Olympic Eagle the contractual severance of
$2.5 million.
In response, Olympic Eagle invoked Washington’s
Franchise Investment Protection Act (FIPA), which
prohibits termination of a franchise contract absent good
cause. See Wash. Rev. Code § 19.100.180(2)(j). Monster
served an arbitration demand on Olympic Eagle and filed an
action in the district court seeking to compel arbitration. The
district court ruled in favor of Monster and compelled
arbitration before JAMS Orange County, as specified by
Monster in its form agreement with the AB distributors.
JAMS provided a list of seven neutrals to conduct the
arbitration, and the parties chose the Arbitrator. The
Arbitrator’s multi-page disclosure statement, provided to the
parties at the commencement of arbitration, contained the
following provision:
I practice in association with JAMS. Each
JAMS neutral, including me, has an
economic interest in the overall financial
success of JAMS. In addition, because of the
nature and size of JAMS, the parties should
assume that one or more of the other neutrals
who practice with JAMS has participated in

6a

6

MONSTER ENERGY V. CITY BEVERAGES
an arbitration, mediation or other dispute
resolution proceeding with the parties,
counsel or insurers in this case and may do so
in the future.

II. Procedural Background
Following two weeks of hearings, the Arbitrator issued
an interim award, finding that Olympic Eagle was not
entitled to protection under FIPA. Two months later, the
Arbitrator awarded Monster attorneys’ fees (together with
the interim award, the Award).
Thereafter, Monster filed a petition in the district court
to confirm the Award, and Olympic Eagle cross-petitioned
for its vacatur. Olympic Eagle sought to vacate the Award
based on later-discovered information that the Arbitrator
was a co-owner of JAMS—a fact that he did not disclose
prior to arbitration.
Olympic Eagle also requested
information from JAMS regarding the Arbitrator’s financial
interest in JAMS, and Monster’s relationship with JAMS.
When JAMS refused to divulge this information, Olympic
Eagle served JAMS with a subpoena. In the face of further
resistance, Olympic Eagle later moved to compel JAMS’s
response to the subpoena.
Ultimately, the district court confirmed the Award,
denying Olympic Eagle’s cross-petition and finding its
motion to compel moot. The district court then awarded
Monster attorneys’ fees from both the arbitration and the
post-arbitration proceedings. Judgment was entered, and
Olympic Eagle timely appealed.

7a
MONSTER ENERGY V. CITY BEVERAGES

7

JURISDICTION AND STANDARD OF REVIEW
We have jurisdiction over this appeal pursuant to
9 U.S.C. § 16 and 28 U.S.C. § 1291, and we review de novo
the district court’s confirmation of an arbitration award.
New Regency Prods., Inc. v. Nippon Herald Films, Inc.,
501 F.3d 1101, 1105 (9th Cir. 2007).
ANALYSIS
The Federal Arbitration Act permits a court to vacate an
arbitration award “where there was evident partiality . . . in
the arbitrators.” 9 U.S.C. § 10(a)(2). 1 Olympic Eagle seeks
vacatur of the Award based on the Arbitrator’s failure to
fully disclose his ownership interest in JAMS. Monster
contends that the district court correctly found Olympic
Eagle’s argument waived, and, alternatively, that the
Arbitrator’s disclosures were sufficient. We first consider
whether Olympic Eagle waived its evident partiality claim,
and, finding that it did not, then turn to the merits.
I. Waiver
The district court held, and Monster continues to argue,
that Olympic Eagle waived its evident partiality claim
because it failed to timely object when it first learned of

Our dissenting colleague makes much of the fact that persons who
litigate their claims in arbitration have voluntarily given up the extensive
protections afforded to parties by the conflict of interest statutes and rules
governing federal judges. However, she fails to similarly credit the fact
that federal law also provides some comparable protections to parties in
arbitration by also permitting courts to vacate arbitration awards when
there is “evident partiality . . . in the arbitrators.” 9 U.S.C. § 10(a)(2);
see infra Section II.
1

8a
8

MONSTER ENERGY V. CITY BEVERAGES

potential “repeat player” bias and the Arbitrator disclosed his
economic interest in JAMS.
In Fidelity Federal Bank, FSB v. Durga Ma Corp.
(Fidelity), we joined several of our sister circuits that utilize
a constructive knowledge standard when considering
whether a party has waived an evident partiality claim.
386 F.3d 1306, 1313 (9th Cir. 2004). There, we held that the
disgruntled party was on notice that the challenged arbitrator
may have been non-neutral given the process the parties
employed to pick their arbitration panel: each party picked
one arbitrator and the arbitrators picked the third. Id.
Moreover, the party had failed to request disclosures from
the arbitrator or object to the lack of disclosures. Id. Given
these facts, we concluded that the party had waived its
partiality objection. Id.
Our post-Fidelity waiver cases involved less
complicated factual scenarios than the case before us. See
Johnson v. Gruma Corp., 614 F.3d 1062, 1069 (9th Cir.
2010) (finding waiver where the party knew for at least “a
year or two” of the prior professional relationship between
the arbitrator and opposing counsel’s spouse before the
arbitrator ruled); Metalmark Nw., LLC v. Stewart, No. 0635321, 2008 WL 11442024, at *1 (9th Cir. May 6, 2008)
(finding no waiver because the arbitrator failed to disclose
conflicts and neither party had selected the arbitrator).
Unlike these prior cases, the situation here is more akin to a
partial disclosure—the Arbitrator disclosed his “economic
interest” in JAMS prior to arbitration, but Olympic Eagle did
not know it was an ownership interest. Although the district
court correctly noted that an ownership interest is “merely a
type of economic interest,” the key issue is whether Olympic
Eagle had constructive notice of the Arbitrator’s potential
non-neutrality.

9a
MONSTER ENERGY V. CITY BEVERAGES

9

We find that Olympic Eagle lacked the requisite
constructive notice for waiver. To be sure, it knew that the
Arbitrator had some sort of “economic interest” in JAMS.
But the Arbitrator expressly likened his interest in JAMS to
that of “each JAMS neutral,” who has an interest in the
“overall financial success of JAMS.” The Arbitrator also
disclosed his previous arbitration activities that directly
involved Monster, in which he ruled against the company.
In context, these disclosures implied only that the Arbitrator,
like any other JAMS arbitrator or employee, had a general
interest in JAMS’s reputation and economic wellbeing, and
that his sole financial interest was in the arbitrations that he
himself conducted. Thus, even if the number of disputes that
Monster sent to JAMS was publicly available, that
information alone would not have revealed that this specific
Arbitrator was potentially non-neutral based on the totality
of JAMS’s Monster-related business.
The crucial fact—the Arbitrator’s ownership interest—
was not unearthed through public sources, and it is not
evident that Olympic Eagle could have discovered this
information prior to arbitration. In fact, JAMS repeatedly
stymied Olympic Eagle’s efforts to obtain details about
JAMS’s ownership structure and the Arbitrator’s interest
post-arbitration. Accordingly, Olympic Eagle did not have
constructive notice of the Arbitrator’s ownership interest in
JAMS—the key fact that triggered the specter of partiality.
Furthermore, we have repeatedly emphasized an
arbitrator’s duty to investigate and disclose potential
conflicts. See, e.g., New Regency, 501 F.3d at 1110–11
(holding that the arbitrator’s new employment triggered duty
to investigate possible conflicts).
The Arbitrator
undoubtedly knew of his ownership interest in JAMS prior
to arbitration yet failed to disclose it. To find waiver in this

10a
10

MONSTER ENERGY V. CITY BEVERAGES

circumstance would “‘put a premium on concealment’ in a
context where the Supreme Court has long required full
disclosure.” Tenaska Energy, Inc. v. Ponderosa Pine
Energy, LLC, 437 S.W. 3d 518, 528 (Tex. 2014) (quoting
Middlesex Mut. Ins. Co. v. Levine, 675 F.2d 1197, 1204
(11th Cir. 1982)). Thus, we hold that Olympic Eagle did not
have constructive notice of the Arbitrator’s potential nonneutrality, and therefore did not waive its evident partiality
claim.
II. Evident Partiality
The Supreme Court has held that vacatur of an
arbitration award is supported where the arbitrator fails to
“disclose to the parties any dealings that might create an
impression of possible bias.” Commonwealth Coatings
Corp. v. Cont’l Cas. Co., 393 U.S. 145, 149 (1968). In a
concurrence, Justice White noted that when an arbitrator has
a “substantial interest in a firm which has done more than
trivial business with a party, that fact must be disclosed,” id.
at 151–52 (White, J., concurring)—a formulation of the rule
that we have adopted. See, e.g., New Regency, 501 F.3d at
1107. By contrast, we have observed that “long past,
attenuated, or insubstantial connections between a party and
an arbitrator” do not support vacatur based on evident
partiality. Id. at 1110; see also Lagstein v. Certain
Underwriters at Lloyd’s, London, 607 F.3d 634, 646 (9th
Cir. 2010) (finding no evident partiality where the
arbitrator’s alleged ethical misconduct “occurred more than
a decade before th[e] arbitration and concerned neither of the
parties to the case”).
In New Regency, we considered an arbitrator’s failure to
disclose his new employment as an executive at a film group
that was negotiating with one of the party’s executives for
the development of a movie. 501 F.3d at 1107, 1111. Prior

11a
MONSTER ENERGY V. CITY BEVERAGES

11

to the arbitration, the arbitrator disclosed only that he had
“negotiated deals” with that same party’s leadership, but
failed to update his disclosures once the new employment
began. Id. at 1106. Because the film deal was “real and
nontrivial,” we found a “reasonable impression of partiality
[] sufficient to support vacatur.” Id. at 1110–11. Similarly,
in Schmitz v. Zilveti, we vacated an arbitration award for
evident partiality where the arbitrator’s law firm had
represented the parent company of one party in “at least
nineteen cases during a period of 35 years.” 20 F.3d 1043,
1044 (9th Cir. 1994). Thus, under our case law, to support
vacatur of an arbitration award, the arbitrator’s undisclosed
interest in an entity must be substantial, and that entity’s
business dealings with a party to the arbitration must be
nontrivial.
Here, the Arbitrator submitted a disclosure statement in
accordance with JAMS’s rules. He disclosed that within the
past five years he had served as a neutral arbitrator for one
of the parties, firms, or lawyers in the present arbitration; that
within the past two years he or JAMS had been contacted by
a party or an attorney regarding prospective employment;
and that he “practice[s] in association with JAMS. Each
JAMS neutral, including me, has an economic interest in the
overall financial success of JAMS.” The Arbitrator also
disclosed that he arbitrated a separate dispute between
Monster and a distributor, resulting in an award against
Monster of almost $400,000. He did not, however, disclose
his ownership interest in JAMS and JAMS’s substantial
business relationship with Monster.
Our inquiry is thus two-fold: we must determine
(1) whether the Arbitrator’s ownership interest in JAMS was
sufficiently substantial, and (2) whether JAMS and Monster
were engaged in nontrivial business dealings. If the answer

12a
12

MONSTER ENERGY V. CITY BEVERAGES

to both questions is affirmative, then the relationship
required disclosure, and supports vacatur.
First, as a co-owner of JAMS, the Arbitrator has a right
to a portion of profits from all of its arbitrations, not just
those that he personally conducts. This ownership interest—
which greatly exceeds the general economic interest that all
JAMS neutrals 2 naturally have in the organization—is
therefore substantial. Second, Monster’s form contracts
contain an arbitration provision that designates JAMS
Orange County as its arbitrator. As a result, over the past
five years, JAMS has administered 97 arbitrations for
Monster: an average rate of more than one arbitration per
month. Such a rate of business dealing is hardly trivial,
regardless of the exact profit-share that the Arbitrator
obtained. 3 In sum, these facts demonstrate that the
Arbitrator had a “substantial interest in [JAMS,] which has
done more than trivial business with [Monster]”—facts that
create an impression of bias, should have been disclosed, and
therefore support vacatur.
Commonwealth Coatings,
393 U.S. at 151–52 (White, J., concurring).
We acknowledge that previous cases did not address an
arbitrator’s interest in his own arbitration service.
2
Indeed, only about one-third of JAMS neutrals are ownershareholders.

Although the record does not reveal the Arbitrator’s specific
monetary interest in Monster-related arbitrations, we do not require such
empirical evidence to conduct the triviality inquiry. See New Regency,
501 F.3d at 1111 (finding that a “high-profile” project was not
unimportant, even though “the record [did] not allow us to place a dollar
value” on it); Schmitz, 20 F.3d at 1044, 1048 (finding generally that an
arbitrator’s firm’s representation on nineteen cases in 35 years resulted
in impression of impartiality).
3

13a
MONSTER ENERGY V. CITY BEVERAGES

13

Nonetheless, the Court did not distinguish between an
arbitrator’s organization and other entities, nor do we see any
reason to insulate arbitration services from the principles that
the Court articulated Commonwealth Coatings.
Some states within our circuit have already legislated
extensive requirements for neutral arbitrators to ensure full
disclosure. In California, for example, arbitrators are
required to disclose “all matters that could cause a person
aware of the facts to reasonably entertain a doubt that the
proposed neutral arbitrator would be impartial,” including
the “existence of any ground specified in [Cal. Civ. Proc.
Code § 170.1] for disqualification of a judge.” Cal. Civ.
Proc. Code § 1281.9(a). Similarly, Montana requires
arbitrators to disclose “all matters that could cause a person
aware of the facts underlying a potential conflict of interest
to have a reasonable doubt that the person would be able to
act as a neutral or impartial arbitrator,” including any ground
for the disqualification of a judge. Mont. Code Ann. §§ 275-116(3)–(4).
In addition, under the Revised Uniform Arbitration Act
(the RUAA), which has been adopted by several states in our
circuit, an arbitrator must disclose “any known facts that a
reasonable person would consider likely to affect the
impartiality of the arbitrator,” including a financial interest
in the outcome of the proceeding. See, e.g., Or. Rev. Stat.
Ann. § 36.650(1)(1). The RUAA also establishes a
presumption of evident partiality when the arbitrator does
not disclose a “known, direct and material interest in the
outcome of the arbitration proceeding or a known, existing
and substantial relationship with a party . . . .” See, e.g.,
Ariz. Rev. Stat. Ann. § 12-3012(E).
In the states that have enacted the referenced measures,
arbitrators currently operate under disclosure rules akin to,

14a
14

MONSTER ENERGY V. CITY BEVERAGES

or more burdensome than, the easily satisfied obligations we
set forth here. Fundamentally, these disclosure requirements
safeguard the parties’ right to be aware of the relevant
information to assess the arbitrator’s neutrality.
We note that although judges are bound by somewhat
different rules than arbitrators, judges are clearly not
immune from recusal requirements when our neutrality
might be reasonably questioned. See, e.g., Caperton v. A.T.
Massey Coal Co., 556 U.S. 868, 881 (2009) (“The Court
asks not whether the judge is actually, subjectively biased,
but whether the average judge in his position is ‘likely’ to be
neutral, or whether there is an unconstitutional ‘potential for
bias.’”); Tumey v. Ohio, 273 U.S. 510, 523 (1927) (holding
that the Due Process Clause requires recusal when a judge
has a “direct, personal, substantial pecuniary interest” in a
case). Unlike the standards governing judges, however, our
ruling in this case does not require automatic disqualification
or recusal—only disclosure prior to conducting an
arbitration concerning (1) the arbitrator’s ownership interest,
if any, in the entity under whose auspices the arbitration is
conducted, and (2) whether the entity under whose auspices
the arbitration is conducted and one or more of the parties
were previously engaged in nontrivial business dealings.
Once armed with that information, and the answers to any
other inquiries the parties may wish to pose as a result of
knowing that information, the parties can make their own
informed decisions about whether a particular arbitrator is
likely to be neutral. It is simplicity itself, and no real burden,
for an arbitrator to disclose his or her ownership interest in
an arbitration company for which he or she works, as well as
the organization’s prior dealings with the parties to the
arbitration.

15a
MONSTER ENERGY V. CITY BEVERAGES

15

Although this litigation involved two sophisticated
companies, the proliferation of arbitration clauses in
everyday life—including in employment-related disputes,
consumer transactions, housing issues, and beyond—means
that arbitration will often take place between unequal parties.
See Katherine Van Wezel Stone, Rustic Justice: Community
and Coercion Under the Federal Arbitration Act, 77 N.C. L.
Rev. 931, 934 (1999); see also Aspic Eng’g & Constr. Co. v.
ECC Centcom Constructors, LLC, 913 F.3d 1162, 1169 (9th
Cir. 2019) (noting, “We have become an arbitration
nation.”). Clear disclosures by arbitrators aid parties in
making informed decisions among potential neutrals. These
disclosures are particularly important for one-off parties
facing “repeat players.” See Lisa B. Bingham, Employment
Arbitration: The Repeat Player Effect, 1 Emp. Rts. & Emp.
Pol’y J. 189, 209–17 (1997) (finding that employees
disproportionately failed to recover damages against repeatplayer employers compared to non-repeat-player
employers).
Ultimately, we agree with Justice White:
The arbitration process functions best when
an amicable and trusting atmosphere is
preserved and there is voluntary compliance
with the decree, without need for judicial
enforcement. This end is best served by
establishing an atmosphere of frankness at
the outset, through disclosure by the
arbitrator of any financial transactions which
he has had or is negotiating with either of the
parties. . . . The judiciary should minimize
its role in arbitration as judge of the
arbitrator’s impartiality. That role is best
consigned to the parties, who are the

16a
16

MONSTER ENERGY V. CITY BEVERAGES
architects of their own arbitration process,
and are far better informed of the prevailing
ethical standards and reputations within their
business.

Commonwealth Coatings, 393 U.S. at 151 (White, J.,
concurring).
In accordance with the interest of finality, judicial review
of arbitration awards is often unexacting. However, the
Supreme Court has nonetheless clearly endorsed the judicial
enforcement of an arbitrators’ duty to disclose. Placing the
onus on arbitrators to disclose their ownership interests in
their arbitration organizations, and their organizations’
nontrivial business dealings with the parties to the
arbitration, is consistent with both the principles of
Commonwealth Coatings and our court’s precedents.
Although our dissenting colleague raises concerns about
the finality of recent arbitral judgments in light of our ruling
in this case, she correctly notes that the applicable statute of
limitations to vacate an arbitration award, which is only three
months, will limit the impact of our ruling on recently
decided arbitrations. 9 U.S.C. § 12; Stevens v. Jiffy Lube
Int’l, Inc., 911 F.3d 1249, 1251–52 (9th Cir. 2018).
Prospectively, arbitration organizations like JAMS, which
are already well-accustomed to extensive conflicts checks
and disclosures, will have no difficulty fulfilling, and even
exceeding, the requirements described here.
CONCLUSION
As the Commonwealth Coatings Court stated, “We can
perceive no way in which the effectiveness of the arbitration
process will be hampered by the simple requirement that
arbitrators disclose to the parties any dealings that might

17a
MONSTER ENERGY V. CITY BEVERAGES

17

create an impression of possible bias.” 393 U.S. at 149. We
thus hold that before an arbitrator is officially engaged to
perform an arbitration, to ensure that the parties’ acceptance
of the arbitrator is informed, arbitrators must disclose their
ownership interests, if any, in the arbitration organizations
with whom they are affiliated in connection with the
proposed arbitration, and those organizations’ nontrivial
business dealings with the parties to the arbitration.
Here, the Arbitrator’s failure to disclose his ownership
interest in JAMS—given its nontrivial business relations
with Monster—creates a reasonable impression of bias and
supports vacatur of the arbitration award. Because we vacate
the arbitration award, we also vacate the district court’s
award of post-arbitration fees to Monster. 4
REVERSED and VACATED.

We further deny Olympic Eagle’s request to take judicial notice
and grant Monster’s request to take judicial notice. We deny the amicus
motions filed by the Legal Academics and Eric Kripke. We find moot
the amicus motion filed by Warner Bros. We grant the amicus motion
filed by the National Beer Wholesalers Association, finding it relevant
and useful. See Fed. R. App. P. 29(a)(3)(B).
4

18a
18

MONSTER ENERGY V. CITY BEVERAGES

FRIEDLAND, Circuit Judge, dissenting:
The majority vacates the arbitration award for “evident
partiality” because the Arbitrator failed to disclose that he
had an ownership interest in JAMS. In the majority’s view,
this undisclosed fact was necessary for the parties’ informed
selection of this Arbitrator because it creates an impression
that differs meaningfully from that created by the facts the
Arbitrator did disclose: (1) that he had a financial interest in
JAMS’s success generally, and (2) that Monster was a repeat
customer of JAMS. I disagree that, in an evaluation of
whether the Arbitrator might favor Monster, the additional
information the majority believes should have been
disclosed would have made any material difference. I would
therefore reject Olympic Eagle’s effort to vacate the
arbitration award in Monster’s favor.
I.
The Framers of our Constitution built protections against
judicial partiality into Article III. Federal judges have life
tenure and may not have their salaries diminished while in
office. U.S. Const. art. III, § 1. As federal employees,
federal judges receive their salaries from the government,
not from the parties who appear before them. These
structural protections are designed to help ensure that federal
judges will decide cases based on the law and the facts, not
out of concern about remaining popular enough to be
selected to decide the next case or to receive the next
paycheck. See The Federalist No. 78, at 465 (Alexander
Hamilton) (Clinton Rossiter ed., 1961) (explaining that
Article III’s provision of life tenure is meant “to secure a
steady, upright, and impartial administration of the laws”).
When parties like those here, who could have their
disputes resolved in federal court, instead have entered into

19a
MONSTER ENERGY V. CITY BEVERAGES

19

a contract that requires resolving any disputes in private
arbitration (whether the arbitration term was desired by both
parties or not), they have given up those Article III
protections. See Merit Ins. Co. v. Leatherby Ins. Co.,
714 F.2d 673, 679 (7th Cir. 1983) (explaining that parties to
a commercial arbitration have “cho[sen] their method of
dispute resolution, and can ask no more impartiality than
inheres in the method they have chosen”). By nature of the
fact that arbitrators are hired and paid by the parties for
whom they conduct private arbitrations, arbitrators have an
economic stake in cultivating repeat customers for their
services. In addition, arbitrators affiliated with an arbitration
firm have an interest in not causing the firm to lose its top
clients. At least to some extent, this means arbitrators have
incentives to make decisions that are viewed favorably by
parties who frequently engage in arbitrations. 1 This feature
of private arbitration, even if distressing, is an inevitable
result of the structure of the industry.
In this case, the Arbitrator disclosed that he had a
financial interest in JAMS’s success. He further disclosed
that he had personally conducted one arbitration in which
Monster was a party and had been selected to decide another
case involving Monster and a different distributor. And he
made clear that “the parties should assume that one or more
of the other neutrals who practice with JAMS has
participated in [a] . . . dispute resolution proceeding with the
parties . . . in this case and may do so in the future.” Olympic
Eagle also knew that Monster used a form contract with its
hundreds of distributors requiring that disputes be resolved
Individual arbitrators may be able to put these incentives out of
their minds and make impartial decisions, but the incentives exist
nonetheless.
1

20a
20

MONSTER ENERGY V. CITY BEVERAGES

through arbitration before JAMS—and therefore had even
more reason to know that Monster had likely hired other
JAMS arbitrators or at least had the potential to do so in the
future. 2 Indeed, the parties had litigated about the form
contract, and the district court had held that Olympic Eagle
had validly agreed to its terms, a ruling Olympic Eagle has
not appealed. And before the arbitration began, Olympic
Eagle could easily have accessed an online record showing
that JAMS had conducted dozens of arbitrations between
See Consumer Case
Monster and its consumers. 3
Information, JAMS, https://www.jamsadr.com/consumerca
ses/ (last visited Oct. 11, 2019); see also Cal. Code Civ. Proc.
§ 1281.96 (requiring arbitration companies to disclose
information about their consumer arbitrations).
This was more than enough information to allow
Olympic Eagle to consider whether the Arbitrator might
2
It is unclear the extent to which a JAMS arbitrator would have had
a similarly strong incentive to please Olympic Eagle, itself a large
beverage distribution company. There appears to be nothing in the
record that indicates whether Olympic Eagle was a repeat customer of
JAMS or how frequently it engages in arbitrations. But it is possible that
a JAMS arbitrator would have had an incentive to please the lawyers
representing Olympic Eagle, given that lawyers often help their clients
choose arbitrators. According to a court filing submitted by Monster, an
international law firm that helped represent Olympic Eagle in this
dispute with Monster had represented parties in at least twenty-three
other cases involving arbitration with JAMS.

As of August 27, 2015—when JAMS sent Monster and Olympic
Eagle a list of potential arbitrators—JAMS had disclosed on its website
at least eighty-one arbitrations involving Monster. Consumer Case
Information, JAMS, https://web.archive.org/web/20150506072558/
http://www.jamsadr.com/files/Uploads/Documents/JAMS-ConsumerCase-Information.xlsx (May 6, 2015) (accessed by searching for
“http://www.jamsadr.com/files/Uploads/Documents/JAMS-ConsumerCase-Information.xlsx” in the Internet Archive Wayback Machine).
3

21a
MONSTER ENERGY V. CITY BEVERAGES

21

have had an incentive to try to please Monster and thereby
keep its repeat arbitration business. The majority reasons,
however, that the Arbitrator’s interest as a JAMS owner
should have been specifically disclosed because it “greatly
exceeds the general economic interest that all JAMS neutrals
naturally have in the organization.” Maj. Op. at 12. I do not
see how this information would have made a material
difference in Olympic Eagle’s evaluation of the Arbitrator.
Owners of JAMS have an interest in maximizing JAMS’s
amount of business, because they share in JAMS’s profits.
Likewise, non-owner arbitrators have an interest in
advancing their professional careers and maintaining their
status with JAMS, which creates similar incentives to decide
cases in a way that is acceptable to repeat player
customers—otherwise, JAMS might terminate the nonowner’s JAMS affiliation.
Notably, by the time the Arbitrator was being selected,
Olympic Eagle had committed to resolving any dispute with
Monster through arbitration at JAMS. This necessarily
meant that Olympic Eagle agreed the arbitration would be
conducted by a JAMS arbitrator, whether that arbitrator was
an owner of JAMS or a non-owner of JAMS. Because both
types of arbitrators would have at least some incentive to
keep repeat customers of JAMS such as Monster happy, it is
unclear why knowing the details of the financial relationship
between any specific potential arbitrator and JAMS would
make a material difference to whether that arbitrator was
accepted by Olympic Eagle. 4 That an arbitrator has an
4
The majority also highlights that the Arbitrator failed to disclose
more concrete information about Monster’s past use of JAMS. Maj. Op.
at 11. To the extent the majority believes this nondisclosure further
supports vacating the arbitration award, compare Maj. Op. at 11 (noting
the Arbitrator did not disclose “JAMS’s substantial business relationship

22a
22

MONSTER ENERGY V. CITY BEVERAGES

ownership interest in the arbitration firm, not just a financial
interest in that firm more generally, is hardly the sort of
“real” and “not trivial” undisclosed conflict that our court
has held requires vacatur. See New Regency Prods., Inc. v.
Nippon Herald Films, Inc., 501 F.3d 1101, 1110 (9th Cir.
2007) (quotation marks omitted).
The majority also leaves unclear how detailed an
arbitrator’s disclosures must be. Is it enough to reveal the
fact that the arbitrator is an owner, or must the arbitrator
disclose information such as how large the ownership
interest is? Is it necessary to disclose the arbitration firm’s
total profits from the prior year—or maybe each year in the
prior decade—so parties may assess, for example, whether
the business of the party in question is significant overall?
And how many prior arbitrations must a corporation have
engaged in with an arbitration firm for there to be “nontrivial
business dealings,” Maj. Op. at 14, that require disclosure? 5
with Monster”), with Maj. Op. at 17 (emphasizing “the Arbitrator’s
failure to disclose his ownership interest in JAMS,” and the existence of
JAMS’s “nontrivial business relations with Monster,” but not
mentioning the Arbitrator’s nondisclosure of those “business relations”),
I disagree. Given that owners and non-owners have similar incentives to
favor repeat players, the extent of a repeat player’s relationship with the
firm as a whole—which would not vary from arbitrator to arbitrator—
would be of little help in deciding whether to choose any particular
arbitrator. And even if the Arbitrator did not disclose precise details, he
did disclose that Monster was a repeat customer.
The majority indicates that generally, if an arbitrator has an
ownership interest in his firm, and his firm has significant prior dealings
with a party, both pieces of information must be disclosed. It is unclear,
however, whether the majority’s approach requires an arbitrator to
disclose significant prior dealings even if he has no ownership interest,
and vice-versa. Compare Maj. Op. at 17 (stating that “arbitrators must
disclose their ownership interests, if any” and their firm’s “nontrivial
5

23a
MONSTER ENERGY V. CITY BEVERAGES

23

Does the fee paid for each of these prior arbitrations need to
exceed any threshold to trigger disclosure? And, because
lawyers often choose or help choose arbitrators, giving
arbitrators an incentive to please lawyers who bring clients
to arbitrations, must prior arbitrations with the lawyers or
law firms representing the parties also be disclosed?
As these lingering questions demonstrate, ruling for
Olympic Eagle is likely to generate endless litigation over
arbitrations that were intended to finally resolve disputes
outside the court system. Nothing in existing caselaw forces
this error. Olympic Eagle has not pointed us to a single
reported federal decision holding that an undisclosed
potential source of bias stemming from the structure of the
private arbitration industry itself warrants vacating an
arbitration award. The majority acknowledges as much by
conceding that there are no prior cases directly on point.
Rather, the precedent binding us that vacated arbitration
awards because of a failure to disclose information involved
an arbitrator who had a relationship with one of the
arbitrating parties that was totally unrelated to prior
arbitrations. See Commonwealth Coatings Corp. v. Cont’l
Cas. Co., 393 U.S. 145, 146, 149–50 (1968) (arbitrator failed
to disclose that he had occasionally served as an engineering
consultant for one of the parties over several years); New
Regency Prods., 501 F.3d at 1107–11 (arbitrator failed to
disclose his employment with a company negotiating a film
deal with one of the parties to the arbitration); Schmitz v.
Zilveti, 20 F.3d 1043, 1044, 1048–50 (9th Cir. 1994)
(arbitrator failed to disclose that his law firm represented in
at least nineteen matters a parent company of one of the
business dealings with the parties to the arbitration” (emphasis added)),
with Maj. Op. at 11–12 (suggesting that disclosure is only required if
there is both an ownership interest and substantial business dealings).

24a
24

MONSTER ENERGY V. CITY BEVERAGES

parties to the arbitration). There is no reason the parties
would know about the potential partiality arising from such
a relationship unless the arbitrator disclosed the relationship.
By contrast, the potential partiality that stems from the very
structure of private arbitration is obvious to anyone who
understands arbitrators’ general economic interest in repeat
business for themselves or their firm.
In the short run, adopting Olympic Eagle’s position will
require vacating awards in numerous cases decided by
JAMS owners (who make up about a third of JAMS
arbitrators) who did not disclose their ownership interest. 6 If
there are other firms where arbitrators similarly hold
ownership interests, the majority’s approach will likewise
require vacatur in those arbitrators’ cases with repeat players
unless there was a disclosure of the ownership interest.
In the long run, adopting Olympic Eagle’s position could
spur years of quibbling over the extent of disclosures
required by arbitrators. And this slippery slope may have no
bottom. If the losing party to an arbitration is less of a repeat
player than its opponent, it will likely be able to think up
after the fact some argument that an arbitrator’s disclosure
did not fully convey the arbitrator’s financial interest in the
potential future arbitration business of the winning party or
its lawyers. The result will be to prolong disputes that both
parties have already spent tremendous amounts of time and
money to resolve. Olympic Eagle, for example, only
Of course, the statute of limitations for filing a motion to vacate an
arbitration award may place a limit on how much litigation there will be.
See 9 U.S.C. § 12; Stevens v. Jiffy Lube Int’l, Inc., 911 F.3d 1249, 1251–
52 (9th Cir. 2018) (discussing statute of limitations for petitions to vacate
arbitration awards).
6

25a
MONSTER ENERGY V. CITY BEVERAGES

25

objected to the Arbitrator’s lack of disclosure after it lost the
arbitration. By that point, more than a year had passed since
the district court compelled arbitration, and the agreed-upon
Arbitrator had conducted a hearing lasting nine days. The
arbitration fee alone was $160,000, and Monster was
awarded $3 million in attorney’s fees and costs. 7 To avoid
the uncertainty created by the majority’s opinion, which
would inevitably exist even after further disclosures are
attempted, parties may shift to using arbitrators who are
unaffiliated with any arbitration firm. These arbitrators may
be less likely to have expertise—but be at least equally likely
to want to retain the business of potential repeat customers.
Cf. ANR Coal Co., Inc. v. Cogentrix of N.C., Inc., 173 F.3d
493, 498–99 (4th Cir. 1999) (“[S]ubjecting arbitrators to
extremely rigorous disclosure obligations would diminish
one of the key benefits of arbitration: an arbitrator’s
familiarity with the parties’ business.” (citing
Commonwealth Coatings, 393 U.S. at 150 (White, J.,
concurring))).
Although I would affirm the Arbitrator’s award in favor
of Monster, I note that lack of disclosure about a party’s prior
arbitrations might require vacatur in some instances. For
Ruling for Olympic Eagle could also lay the groundwork for
further disputes over whether arbitrators with ownership interests have a
conflict that disqualifies them under state law from arbitrating cases
involving a repeat player. See Cal. Code Civ. Proc. § 1281.91(d)
(allowing for disqualification under certain circumstances, including
those described in Cal. Code Civ. Proc. § 170.1(a)(6)(A)(iii)—when “[a]
person aware of the facts might reasonably entertain a doubt that the
[decision-maker] would be able to be impartial”); see also Alaska Stat.
§ 09.43.380(b) (“An individual who has a known, direct, and material
interest in the outcome of the arbitration proceeding . . . may not serve
as an arbitrator required by an agreement to be neutral.”); Ariz. Rev. Stat.
Ann. § 12-3011(B) (same); Haw. Rev. Stat. § 658A-11(b) (same); Nev.
Rev. Stat. § 38.226(2) (same).
7

26a

26

MONSTER ENERGY V. CITY BEVERAGES

example, if one of the parties had used the exact same
arbitrator to resolve numerous disputes, and the arbitrator
always ruled in its favor, vacatur might be appropriate based
on the arbitrator’s failure to disclose that arbitration history.
But the facts of this case are nowhere near so extreme. The
Arbitrator had previously decided one dispute between
Monster and a distributor, and that proceeding resulted in an
award of almost $400,000 against Monster. The Arbitrator
had also been selected to decide a dispute between Monster
and another distributor, which was still pending at the time
of the arbitration involving Monster and Olympic Eagle.
The disclosure the Arbitrator made to the parties provided
accurate information about both arbitrations.
II.
To the extent that the private arbitration system favors
repeat players, I think it is unfortunate that so many parties
forgo the protections of Article III and turn to arbitration
instead. It is especially unfortunate when arbitrations
involve a non-repeat player party that had no choice but to
agree to arbitration in order to acquire employment,
purchase a product, or obtain a necessary service. The
majority laudably seeks to mitigate disparities between
repeat players and one-shot players in the arbitration system.
But I disagree that requiring disclosures about the elephant
that everyone knows is in the room will address those
disparities. It will only cause many arbitrations to be redone, and endless litigation over how many repeated
arbitrations there will be.
I therefore respectfully dissent.

27a

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
DEC 30 2019
MOLLY C. DWYER, CLERK

MONSTER ENERGY COMPANY, FKA
Hansen Beverage Company,
Petitioner-Appellee,
v.
CITY BEVERAGES, LLC, DBA Olympic
Eagle Distributing,

U.S. COURT OF APPEALS

Nos. 17-55813, 17-56082

D.C. No.
5:17-cv-00295-RGK-KK
Central District of California,
Riverside
ORDER

Respondent-Appellant.
Before: M. SMITH and FRIEDLAND, Circuit Judges, and SIMON,* District
Judge.
Judges M. Smith and Simon voted to deny the petition for panel rehearing,
and Judge Friedland voted to grant it. Dkt. 105. Judge M. Smith voted to deny the
petition for rehearing en banc and Judge Simon so recommends. Dkt. 105. Judge
Friedland voted to grant the petition for rehearing en banc.
The full court has been advised of the petition for rehearing en banc, and no
judge of the court has requested a vote on it. Fed. R. App. P. 35. The petitions for
panel rehearing and rehearing en banc are DENIED.

The Honorable Michael H. Simon, United States District Judge for the
District of Oregon, sitting by designation.
*

Panel

28a
Case 5:17-cv-00295-RGK-KK Document 46 Filed 05/09/17 Page 1 of 8 Page ID #:4523
JS-6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

5:l 7-cv-00295-RGK-KK

Title

Monster Energy Company v. City Beverages d/b/a Olympic Eagle Distributing

Present: The Honorable

May 09, 2017

R. GARY KLAUSNER, UNITED STATES DISTRICT JUDGE

Sharon L. Williams

Not Repo1ted

NIA

Deputy Clerk

Comt Reporter / Recorder

Tape No.

Attorneys Present for Plaintiffs:

Attorneys Present for Defendants:

Not Present

Not Present

Proceedings:

I.

Date

(IN CHAMBERS) Order Re: Petition to Confinn Arbitration Award (DEs 9,
11) & Cross-Petition to Vacate Arbitration Award (DE 23)

INTRODUCTION

On April 27, 2015, Monster Energy Company ("Monster") filed a Complaint in a separate action
before this Comt1 for Declarato1y Relief against City Beverages, LLC d/b/a Olympic Eagle Distributing
("Olympic") regarding a contractual dispute. Monster sought a judicial determination that the arbitration
provision in their contract was valid and enforceable. On September 29, 2015, the Comt agreed with
Monster and granted Monster' s Motion to Compel Arbitration.
Monster prevailed following a lengthy arbitration of the underlying contract dispute, and the
Arbitrator awarded Monster roughly $ 3,000,000 in attorney's fees and costs ("Arbitration Award").
On Mar ch 3, 2017, Monster filed the petition in fue present action asking fue Comt to: (1)
confinn the Arbitration Award, (2) enter judgment against Olympic, and (3) grant post-arbitration
attorney's fees. On March 17, 2017, Respondent filed a Cross-Petition to vacate fue Arbitration Award.
For the following reasons, fue Comt GRANTS in part Monster 's Petition and DENIES
Olympie's Cross-Petition.
II.

FACTUAL BACKGROUND

Olympic is a beverage distribution company located in the state of Washington, and is fue
exclusive distributor of Anheuser-Busch ("AB") beer within its territ01y. Monster is an energy drink
company that reached an agreement with AB in 2006 regarding the distribution of Monster's products.
Under the terms of the Monster-AB agreement, all of AB' s existing distributors could elect to also
distribute Monster products. Pm suant to this setup, Olympic became a Monster distributor, and began
distributing Monster branded beverages in Washington under the terms of two separate MonsterOlympic distribution agreements (one for on-premises distribution, and one for off-premises
distribution).
1

Monster Energy Co., v. Olympic Eagle Distrib., No. 15-cv-00819-RGK-KK

CV-90 (06/04)

ClVIL MINUTES - G ENERAL

Page I of8

29a
Case 5:17-cv-00295-RGK-KK Document 46 Filed 05/09/17 Page 2 of 8 Page ID #:4524

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

JS-6

CIVIL MINUTES - GENERAL
Case No.

5:l 7-cv -00295-RGK-KK

Date

May 09, 2017

Title

Monster Energy Company v. City Beverages d/b/a Olympic Eagle Distributing

These agreements provided that the Monster-Olympic distribution relationship would last for 20
years, but Monster had the right to terminate the agreements without cause if Monster: (1) repurchased
Olympie's unsold Monster invento1y, adve1tising material, and equipment; and (2) paid Olympic an
amount equal to Olympie' s twelve-month trailing gross profit earned from its sale of Monster products.
In 2014, Monster decided to seek a broader master distribution agreement with Coca-Cola that
would require Monster to terminate its existing distribution agreements, including the ones with
Olympic. As such, Monster sent Olympic written notice te1minating their agreements, repurchased the
excess invent01y , adve1tising material, and equipment, and sent Olympic a check for $2,523,923.68,
representing Olympie' s twelve-month trailing gross profits from Monster sales.
On March 3, 2015, Olympic notified Monster that it was challenging the te1mination based on
Washington franchise law, which Olympic contended prohibits Monster from te1minating their
agreement without cause.
At this point, Monster sought declarat01y relief before this Comi, asking the Comi to enforce the
identical arbitration provisions in the Monster-Olympic distribution agreements. The Comt found that
the parties' dispute over Monster's right to te1minate the agreement fell within the te1ms of their
arbitration agreement, and ordered the pariies to arbitration. 2 Per the Monster-Olympic ar-bitration
agreement, the arbitration was conducted using JAMS, a lar·ge alternative dispute resolution services
firm.
On November 14, 201 6, following extensive briefing and a two-week ar·bitration proceeding, the
JAMS arbitrntor found that Olympic was not a "franchisee," and Monster was not a "franchisor," for
purposes of the Washington Franchise Investment Protection Act ("FIPA"), Wash. Rev. Code § 19.100
et seq. (Arbitrator's Awar·d, p.7, ECF No. 9-5.) The arbitrator dete1mined that because FIPA did not
apply, the ear·ly te1mination provisions in the Monster-Olympic distribution agreements were valid and
enforceable. (Id.)
The arbitrator also found that the arbitration provisions in the distribution agreements allowed
the ar·bitrator to awar·d reasonable attorneys' fees and costs to the prevailing party. (Id. at 11 .) On
January 24, 201 7, after rev iewing the declar·ations and briefs submitted by the pa1iies on the issue, the
arbitrator awar·ded Monster $3,000,000 in attorney's fees and costs.
The Pariies now dispute whether the Arbitration Awar·d should be vacated or confirmed, and
whether the prevailing patty on this question is entitled to recover its attorney 's fees and costs incurred
in this post-arbitration proceeding.

III.

JUDICIAL STANDARD

Under the Federal Arbitration Act ("FAA"), a federal comt has only ve1y limited authority to
review arbitration decisions "because broad judicial review would diminish th e benefits of arbitration."
2

Mons ter Energy Co. , No. 15-cv-00819-RGK-KKx, 2015 WL 12781213, at *6-7 (C.D. Cal. Sept. 29, 2015).

CV-90 (06/04)

crvn. MINUTES - G ENERAL

Page 2 of 8

30a
Case 5:17-cv-00295-RGK-KK Document 46 Filed 05/09/17 Page 3 of 8 Page ID #:4525

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

JS-6

CIVIL MINUTES - GENERAL
Case No.

5: l 7-cv-00295-RGK-KK

Date

May 09, 2017

Title

Monster Energy Company v. City Beverages d/b/a Olympic Eagle Distributing

Lifescan, Inc. v. Premier Diabetic Servs., 363 F.3d 1010, 10 12 (9th C ir. 2004). A district comt may
vacate an arbitration award "only in vety unusual ci1cum stances." First Options of Chi., Inc. v. Kaplan,
5 14 U.S. 938, 942 ( 1995). Under § 10 of the FAA, an arbitration award may only be vacated if: (1) " the

award was procmed by cormption , fraud, or undue means"; (2) "there was evident p attiality" on behalf
of the arbitrators; (3) " the arbitrators were guilty of misconduct"; or ( 4) " tlte at-bitrators exceeded their
powers." 9 U .S.C. § lO(a); Hall St. Assocs., LLC v. Mattel, Inc., 552 U.S. 576, 584 (2008). An arbitrator
is deemed to have exceeded his powers if he acts in "m anifest disregat·d of the law." Comedy Club, Inc.
v. Improv W Assocs., 553 F .3d 1277, 1290 (9th Cir. 2016). In the N inth Circuit, an arbitrator has
manifestly disregarded the law when it is clear th at he recognized, but ignored, some " well defined,
explicit, and cleat-ly applicable" law. Wawock v. CSI Elec. Contractors, Inc., 649 F. App' x. 556, 557
(9th Cir. 201 6).
IV.

DISCUSSION

Monster petitions the Comt to confirm the Arbitration A wat·d, enter j udgment against O lympic,
and grant attorney' s fees and costs for this post-arbitration litigation. Olympic at·gues that the Comt
should instead vacate the Arbitration Award because of th e at·bitrntor's evident pattiality and manifest
disregard for the law. O lympic also contends that, in any case, Monster is not entitled to post-at-bitrntion
fees an d costs.
The Comt will first determine w heth er the Arbitration Award w ill be confumed or vacated by
analyzing whether, as Olympic claims, (a) the at·bitral proceedings were man ed by evident paitiality, or
(b) the at-bitrator acted in manifest disregard of the law. The Comt w ill then address whether the
prevailing patty is entitled to recover attorney's fees and costs incmred in this post-arbitration action.

A.

Vacatur of the Arbitration Award for Evident Partiality

The patties selected the H onorable John W. Kennedy, Jr. ("Arbitrator") as the JAMS neutral w ho
would preside over their at·bitration proceedings. On October 6, 2015, the Arbitrator submitted a list of
disclosm es to both patties. In the "Declat·ations of Arbitrator" section, the Arbitrator stated:
I practice in association w itlt JAMS. Each JAMS neutral, including me,
has an economic interest in the overall financial success of JAMS. In
addition, because of the nature and size of JAMS, tlte patties should
assume that one or more of the other w ho practice with JAMS has
patticipated in an at-bit.ration, mediation or other dispute resolution
proceeding witlt the patties, counsel or insm ers in this case and may do so
in the futm e.
(Vaska D eel. Ex. G , at 6, ECF N o. 26- 10.)
Olympic contends, however, that the Arbitrator has much more than a mere " economic interest"
in the financial success of JAMS, as he is actually a patt owner of JAMS. O lympic at·gues that the
CV-90 (06/04)

ClVIL MINUTES - G ENERAL

Page 3 of8

31a
Case 5:17-cv-00295-RGK-KK Document 46 Filed 05/09/17 Page 4 of 8 Page ID #:4526

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

JS-6

CIVIL MINUTES - GENERAL
Case No.

5: l 7-cv-00295-RGK-KK

Date

May 09, 2017

Title

Monster Energy Company v. City Beverages d/b/a Olympic Eagle Distributing

Arbitrator 's failure to disclose his ownership interest in JAMS, in light of Monster's status as a "repeat
player" in JAMS arbih·ation proceedings, creates an impression of evident paitiality.
To show th at an arbitrator demonstrated evident prutiality, the pruty seeking to vacate an
ru-bitration awru·d need not show that the arbitrator "was actually guilty of frau d or bias in deciding the
case." Commonwealth Coatings C01p. v. Cont'! Cas. Co., 393 U.S. 145, 147 (1968)). Instead, the patty
need only establish that the arbitrator failed to disclose any dealings to the patties "that might create an
impression of possible bias." New Regency Prods. v. Nippon Herald Films, 501 F.3d 1101, 1105 (9th
Cir. 2007) (quotations and citations omitted).
As a threshold matter, the Court determines that Olympic has waived its evident prutiality claim
because Olympic failed to timely object when it first learned of the potential "repeat player" bias due to
the Arbitrator's economic interest in JAMS. See Fid. Fed. Bank, FSB v. Durga Ma Corp. , 386 F.3d
1306, 1313 (9th Cir. 2004) ("Holding that the waiver doch·ine applies where a patty to an arbitration has
conshuctive knowledge of a potential conflict but fails to timely object is the better approach in light of
our policy favoring the finality of ru-bitration awru·ds."). As a sophisticated commercial entity, Olympic
cet1ainly shou ld have been awru·e of the potential fm a "repeat player" bias after the Arbih·ator disclosed
his "economic interest" in JAMS at the outset of th e ru-bitration. The proper time for Olympic to fmt her
investigate or obj ect to the Arbitrator' s potential conflict of interest, therefore, was before the arbih·ation
awru·d was issued.
Even assuming that Olympic had not waived its argument, however, the Comt sees nothing that
would strongly suggest evident pattiality on the patt of the Arbih·ator. The Arbitrator disclosed from the
beginning that he had an econ omic interest in JAMS, and Olympic nonetheless consented to his setving
as the ru-bitrator without any fmther investigation. An ownership interest in JAMS is merely a type of
economic interest. In this case, the Comt sees no reason to require that the Arbitrator have disclosed his
pruticular economic interest at a granulru· level unless the pruties inqui1ed fmther after he made his initial
economic interest disclosure. Moreover, Olympic offers no particularized evidence of the Arbitrator's
prutiality or bias resulting from his economic interest in JAMS. See Nagrampa v. Mai/Coups, Inc., 469
F.3d 1257, 1285 (9th Cir. 2006) ("[M]erely raising the ' repeat player effect' claim, without presenting
more patt iculru·ized eviden ce demonstrating imprutiality, is insufficient under California law to suppott
an unconscionability finding."). Therefore, the Comt DENIES Olympie 's Motion to Vacate the
Arbih·ation Award on this ground.

B.

Vacatur of the Arbitration Award for Manifestly Disregarding the Law

Olympic next contends that the Arb ih·ator demonstrated a manifest disregru·d for the law in two
instances. First, Olympic ru·gues that the Arbitrator applied the wrong test to detennine whether FIPA

applies to the patties' rlispnte. Seconrl, Olympic argues that the Arhitrator ignored the one-way fee

provision of Washington' s Consumer Protection Act in awarding Monster attorney's fees and costs.
As discussed above, "[a]lthough the words 'manifest disregard for law' do not apperu· in the
FAA, they have come to serve as a judicial gloss on the standru·d for vacatur set fo1th in FAA §
CV-90 (06/04)

ClVIL MINUTES - G ENERAL

Page 4 of8

32a
Case 5:17-cv-00295-RGK-KK Document 46 Filed 05/09/17 Page 5 of 8 Page ID #:4527

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

JS-6

CIVIL MINUTES - GENERAL
Case No.

5:l 7-cv-00295-RGK-KK

Title

Monster Energy Company v. City Beverages d/b/a Olympic Eagle Distributing

Date

May 09, 2017

10(a)(4)." Johnson v. Wells Fargo Home Mortg. , Inc., 635 F.3d 401 , 414 (9th Cir. 2011). To rise to the
level of manifest disregard for the law, the record must clearly show that the arbitrator recognized the
applicable law and then ignored it. Comedy Club, 553 F.3d at 1290. Moreover, the law that the arbitrator
allegedly ignored "must be well defmed, explicit, and clearly applicable." Collins v. D.R. Horton, Inc.,
505 F.3d 874, 879 (9th Cir. 2007) (emphasis omitted). " [A]rbitrators 'exceed their powers' ... not when
they merely interpret or apply the governing law incorrectly, but when the award is 'completely
inational."' Kyocera Corp. v. Prudential-Bache Trade Servs., Inc., 341 F.3d 987, 997 (9th Cir. 2003)
(en bane) (citations omitted).
1.

Substantial Association

In the first alleged instance of manifest disregard of the law, the Arbitrator found that Olympic
was not entitled to protection under FIPA because one the requirements for FIPA to apply-that the
distributor of a company's products be "substantially associated" with the company's trade name or
trademarks-was not satisfied.
Olympic argues that the Arbitrator improperly applied a percentage test to dete1mi.ne whether a
distributor is substantially associated with a company, basing the dete1mi.nation on the percentage of the
distributor's business that comes from selling that company's products. Olympic argues that the
percentage test-adopted by comts in Connecticut-is improper under Washington law, and that the
Arbitrator should have instead looked to how comts in California have dealt with the idea of
"substantial association ."
Washington law does not define "substantial association," and ve1y few cases have analyzed this
element under FIPA. Olympic argues that "the only Washington comt to directly address the
interpretation of 'substantial association' under [FIPA]," Atchley v. Pepperidge Farm, Inc., declared that
comts should look to California law on the issue. 2012 U.S. Dist. LEXIS 173974 (E.D. Wash. December
6, 2012). (Olympie's Pet. To Vacate 17, ECF No. 22-1.) But the "Washington comt" in Atchley was
actually afederal district court speculating about how Washington state comts might deal with the issue,
and thus Atchley' s interpretation of FIPA does not have any binding precedential effect. Moreover, in
reaching its decision, the Atchley comt does not explicitly state that comts must only look to California
law when inte1preting FIPA. Indeed, Atchley references both Connecticut and Indiana franchise laws
when interpreting other FIPA provisions.
Finally, even if Atchley stands for the proposition that courts should look to California law to
inte1pret the "substantial association" prong of FIPA, the Arbitrntor never stated that his fmding of a
lack of substantial association was entirely premised on Connecticut law. Rather, he noted that
Connecticut's percentage test was one of nine non-exhaustive factors that "primarily lead [the
Arbitrator] to this findin g." (Arbitrator 's Tnterim Award, p . 7, EC:F No. 9-5.)

After reviewing the Arbitrator's decision, the arguments of both patties, as well as the relevant
case law, the Comt is not convinced that there is a "well defmed, explicit, and cleai·ly applicable" rnle

CV-90 (06/04)

CfVIL MINUTES - G ENERAL

Page 5 of8

33a
Case 5:17-cv-00295-RGK-KK Document 46 Filed 05/09/17 Page 6 of 8 Page ID #:4528

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

JS-6

CIVIL MINUTES - GENERAL
Case No.

5:l 7-cv -00295-RGK-KK

Date

May 09, 2017

Title

Monster Energy Company v. City Beverages d/b/a Olympic Eagle Distributing

regarding the inte1pretation ofFIPA 's "substantial association" prong in Washington. As such, the
Arbih·ator 's inte1pretation cannot rise to the level of manifest disregard for the law.
Therefore, the Comt DENIES Olympie's Motion to Vacate the Arbih·ation Award on this
ground.
2.

Attorney's Fees Provision

In the second alleged instance of manifest disregard of the law, the Arbih"ator found that the oneway fee provision under Washington 's Consumer Protection Act ("CPA"), Wash. Rev. Code§ 19.86.09,
did not apply, and awarded Monster attorney's fees and costs under the te1ms of the Monster-Olympic
dish"ibution agreement, which explicitly allowed for such an award.

The attorney's fees provision of the CPA is "one-way," in that only a claimant seeking
protection under FIPA may recover attorney's fees. Wash. Rev. Code§ 19.86.09. If the CPA applied,
Monster would have been precluded from getting attorney's fees at arbih"ation. The arbih"ation provision
of the Monster-Olympic dish"ibution agreements, by conh"ast, contains a "two-way" attorney's fees
provision, which states that " [i]n addition to all other relief, the arbitrator shall have the power to award
reasonable attorney's fees and costs to the prevailing pa1ty." (Gardenswa1tz Deel., ,r 9, Ex. 5 § 26, ECF
No. 32-6.)
Olympic argues that because the CPA is the exclusive means of enforcing FIPA, and its claims at
arbih"ation arnse out ofFIPA, the CPA's one-way attorney's fees provision should have applied. The
Arbih·ator detennined, however, that since Olympic failed to show that it was a "franchisee" 1mder
FIPA, it had no FIPA or CPA claims, and thus the CPA 's one-way fee provision was inapplicable. The
Arbih·ator then looked to the terms of the paities' own ai-bitration agreement for guidance on whether
Monster was entitled to attorney' s fees.
The Arbih"ator's decision that the Monster-Olympic arbih"ation agreement's fee provision applied
instead of the CPA's fee provision was not "completely inational." See Advanced Micro Devices, Inc. v.
Intel Corp., 9 Cal. 4th 362, 367 (1994) (" [I]n the absence of more specific resh·ictions in the arbih"ation
agreement ... the remedy an arbih·ator fashions does not exceed his or her powers if it beai·s a rational
relationship to the underlying conh·act as inte1preted, expressly or impliedly, by the ai·bih·ator."). Nor
was it in direct conh"avention of well-defined, explicit, and clearly applicable law . Therefore, the Comt
finds that the Arbih·ator did not manifestly disregard the law, and DENIES Olympie's Motion to Vacate
the Arbih"ation Award on this ground.
C.

Post-Arbitration Attorney's Fees

" [T]here is nothing in the Federal Arbih·ation Act which provides attorneys' fees to a party who is
successful in seeking confnmation of an ai·bitrntion awai·d in the federal comts." Menke v. Monchecourt,
17 F.3d 1007, 1009 (7th Cir.1 994). However, federal comts may nonetheless award attorneys' fees if
there is a conh"actual provision that provides for the award. See, e.g. , SCIE LLC v. XL R einsurance Am.,
Inc. , 397 F. App'x 348, 351 (9th Cir. 2010). Here, the arbih·ation provision in the Monster-Olympic
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 6 of8

34a
Case 5:17-cv-00295-RGK-KK Document 46 Filed 05/09/17 Page 7 of 8 Page ID #:4529

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

JS-6

CIVIL MINUTES - GENERAL
Case No.

5:l 7-cv -00295-RGK-KK

Date

May 09, 2017

Title

Monster Energy Company v. City Beverages d/b/a Olympic Eagle Distributing

distribution agreement provides that the arbitrator can award reasonable attorney's fees, but is silent as
to whether a comi tasked with enforcing an arbitration award can award post-arbitration fees.
Under California law, comis have held that a contract provision giving an arbitrator authority to
grant attorney 's fees to the prevailing pa1iy also allows for provision of attorney 's fees in postarbitration proceedings, such as this one. Ajida Techs., Inc. v. Roos Instruments, Inc., 87 Cal. App. 4th
534, 552 (2001) (holding that an arbitration attorney's fees clause " is broad enough to cover fees on this
appeal."). As the Comt has jmisdiction over the present action through diversity, the Comi must apply
California law to this question. See Erie R. Co. v. Tompkins, 304 U.S. 64, 58 S.Ct. 8 17 (1938); SCIE
LLC v. XL Reinsurance Am., Inc., 397 F. App'x at 351 (9th Cir. 2010) ("The district comi did not en- in
awarding plaintiffs the attorney's fees and expenses incmred in ... confnming the arbitration award.")
(citingAjida, 87 Cal. App. 4th at 552).
Therefore, the Comi holds that, at the Comi's discretion, Monster may be entitled to attorney's
fees incmred to confnm the arbitration award in these proceedings. The Comi will not, however, grant
Monster 's request for $130,000 in attorney's fees without proper briefing and suppo1iing documentation.
If Monster wishes to seek attorney's fees relating to its confumation of the arbitration award in this
action, Monster must file a properly noticed motion for attorney's fees and costs.
V.

CONCLUSION

For the foregoing reasons, the Comi hereby GRANTS Monster's First Amended Petition to
Confom the Final Arbitration Award (DEs 9, 11). If Monster wishes for the Comt to enter a separate
judgement in addition to this Order, it should submit a proposed judgment consistent with this Order
within 7 days of the date of this Order.
The Comi consequently DENIES Olympie' s Cross-Petition to Vacate the Arbitration Award
(DE 23).
The Comi DENIES without prejudice Monster's request for post-arbitration attorney' s fees,
and orders that any finiher motions regarding attorney's fees must be filed within 7 days of the date of
this Order.

CV-90 (06/04)

CIVIL MINUTES - G ENERAL

Page 7 of8

35a
Case 5:17-cv-00295-RGK-KK Document 46 Filed 05/09/17 Page 8 of 8 Page ID #:4530
JS-6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL

Case No.

5: l 7-cv-00295-RGK-KK

Date

May 09, 2017

Title

Monster Energy Company v. City Beverages d/b/a Olympic Eagle Distributing

The Comt DENIES the following ex palie applications and motions as MOOT:
(1) Olympie's Ex Pa1te Application to Continue Hearing on Cross-Motions to Confom
and Vacate Arbitration Award (DE 36)
(2) Olympie's Motion to Compel Production of Documents (DE 38)
(3) Olympie's Motion to Strike (DE 44)
IT IS SO ORDERED.

Initials of Preparer

CV-90 (06/04)

Cl"Vll. MINUTES - GENERAL

Page 8 of8

